RULE 33.1(h) CERTIFICATE OF COMPLIANCE
No. 20-695
Derek Piersing,
v.

Petitioner

Domino’s Pizza Franchising LLC, et al.,
Respondent.
As required by Supreme Court Rule 33.1(h), I, J. Samuel Tenenbaum, certify
that the Brief of Amicus Curiae Professor George A. Bermann in Support of
Petitioner in the foregoing case contains 5,741 words, excluding the parts of the
document that are excluded by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on December 21, 2020.

/s/ J. Samuel Tenenbaum
J. SAMUEL TENENBAUM
BLUHM LEGAL CLINIC
COMPLEX CIVIL LITIGATION
AND INVESTOR PROTECTION
CENTER
NORTHWESTERN PRITZKER
SCHOOL OF LAW
375 East Chicago Avenue
Chicago, Illinois 06011
(312) 503-4808
s-tenenbaum@
law.northwestern.edu

